App. 1
[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
-----------------------------------------------------------------------

No. 20-11148
Non-Argument Calendar
-----------------------------------------------------------------------

D.C. Docket No. 4:19-cv-00299-HLM
DOUGLAS EDWARDS,
Plaintiff – Appellant,
versus
SOLOMON and SOLOMON, P.C.,
Defendant – Appellee.
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Northern District of Georgia
-----------------------------------------------------------------------

(September 30, 2020)
Before MARTIN, JILL PRYOR, and BRANCH, Circuit
Judges.
PER CURIAM:
At issue in this appeal is whether Georgia’s renewal statute, O.C.G.A. § 9-261, can save a claim that
is otherwise time-barred under the Fair Debt Collection Practice Act (FDCPA), 15 U.S.C. § 1692 et seq. We

App. 2
conclude that it cannot and afﬁrm the district court’s
dismissal of Douglas Edwards’s complaint against Solomon and Solomon, P.C. as time-barred.
I.
On April 26, 2019, Edwards ﬁled a complaint
against Solomon and Solomon—a third-party collection agency—in the Superior Court of Bartow County,
Georgia. The complaint alleged that Solomon and
Solomon violated various provisions of the Fair Debt
Collection Practices Act (FDCPA), 15 U.S.C. § 1692 et
seq. On May 20, 2019, Solomon and Solomon removed
the case to the United States District Court for the
Northern District of Georgia based on federal question
jurisdiction. The same day that Solomon and Solomon
removed the case to federal court, Edwards voluntarily dismissed it without prejudice pursuant to Rule
41(a)(1)(A) of the Federal Rules of Civil Procedure.
Six months later, on November 27, 2019, Edwards
reﬁled his complaint in the Superior Court of Bartow
County, which alleged the same FDCPA claims against
Solomon and Solomon as in the initial complaint. Once
again, Solomon and Solomon removed the case to the
U.S. District Court for the Northern District of Georgia
on the basis of federal question jurisdiction.
This time, however, Solomon and Solomon also
moved to dismiss Edwards’s complaint pursuant to
Rule 12(b)(6) of the Federal Rules of Civil Procedure.
Solomon and Solomon argued that Edwards’s claims
were time barred under the FDCPA’s one-year statute

App. 3
of limitations, 15 U.S.C. § 1692k(d). As Solomon and
Solomon pointed out in its motion, Edwards’s complaint speciﬁcally alleged that the FDCPA violations
occurred on May 1, 2018, May 25, 2018, and July 23,
2018. But the new complaint was ﬁled on November
27, 2019, and therefore, pursuant to § 1692(k)(d), any
FDCPA violation must have occurred on or after November 26, 2018 to be actionable. Edwards opposed
the motion, arguing that Georgia’s renewal statute,
O.C.G.A. § 9-2-61, prevented his claims from being
deemed time-barred. The district court ultimately dismissed Edwards’s complaint as time-barred, concluding that where Congress has set a speciﬁc statute of
limitations, it cannot be extended by operation of state
law. Edwards now appeals.
II.
We review the district court’s grant of Solomon
and Solomon’s motion to dismiss de novo, “accepting
the allegations in the complaint as true and construing
them in the light most favorable to the plaintiff.” Pinson v. JPMorgan Chase Bank, Nat’l Ass’n, 942 F.3d
1200, 1206 (11th Cir. 2019).
III.
“The FDCPA imposes civil liability on debt collectors for certain prohibited debt collection practices.”
Hart v. Credit Control, LLC, 871 F.3d 1255, 1257 (11th
Cir. 2017) (alteration adopted) (quoting Jerman v. Carlisle, McNellie, Rini, Kramer & Ulrich L.P.A., 559 U.S.

App. 4
573, 576 (2010)). The only relevant FDCPA provision
in this appeal is its statute of limitations provision,
which provides that lain action to enforce any liability
created by this subchapter may be brought in any appropriate United States district court without regard
to the amount in controversy, or in any other court of
competent jurisdiction, within one year from the date
on which the violation occurs.” 15 U.S.C. § 1692k(d)
(emphasis added).
On appeal, Edwards does not dispute that his
claims fall outside of the FDCPA’s one-year statute of
limitations. Rather, he argues that his claims are not
time barred because he complied with Georgia’s renewal statute, O.C.G.A. § 9-2-61. That statute provides
in pertinent part:
When any case has been commenced in either
a state or federal court within the applicable
statute of limitations and the plaintiff discontinues or dismisses the same, it may be recommenced in a court of this state or in a federal
court either within the original applicable period of limitations or within six months after
the discontinuance or dismissal, whichever is
later . . .
O.C.G.A. § 9-2-61(a). Edwards’s argument hinges on
whether the Georgia renewal statute applies notwithstanding the FDCPA’s express one-year statute of limitations. If it does, then his new complaint, which was
ﬁled within six months of the dismissal of his initial
complaint, would have been timely.

App. 5
Georgia’s renewal statute does not apply to the
FDCPA. Our case law is clear that, where Congress has
set an express statute of limitations, state law cannot
otherwise extend it. In Phillips v. United States, for example, we considered whether the Georgia renewal
statute could extend the time for ﬁling a claim under
the Federal Torts Claims Act (“FTCA”). 260 F.3d 1316,
1317-18 (11th Cir. 2001). We reasoned that because “a
[federal] court looks to state law to deﬁne the time limitation applicable to a federal claim only when Congress has failed to provide a statute of imitations for a
federal cause of action,” and Congress expressly provided a [six-month] limitation period for FTCA claims,
“the incorporation of diverse state renewal provisions
into [the FTCA] would undermine the uniform application of [the FTCA’s] six month time limitation just as
effectively as would the incorporation of state law for
the accrual of a cause of action.” Id. at 1318-19 (quotations omitted). Accordingly, we held that the Georgia
renewal statute could not extend the FTCA’s limitations period. Id.; see also Burnett v. N.Y. Cent. R.R. Co.,
380 U.S. 424, 433 (1965) (rejecting a claim that Ohio’s
savings statute applied to the Federal Employers’ Liability Act because “[t]he incorporation of variant state
savings statutes would defeat the aim of a federal limitation provision designed to produce national uniformity”); Holmberg v. Armbrecht, 327 U.S. 392, 395
(1946) (“If Congress explicitly puts a limit upon the
time for enforcing a right which it created, there is an
end of the matter. The Congressional statute of limitation is deﬁnitive.”).

App. 6
The same reasoning applies to FDCPA claims. Congress speciﬁcally provided for a one-year limitations
period for FDCPA claims. See 15 U.S.C. § 1692k(d). And
incorporating Georgia’s renewal statute into the FDCPA
would undermine the uniform application of this federal limitation. We therefore conclude that Georgia’s
renewal statute does not extend the FDCPA’s one-year
statute of limitations.1
Instead of following Phillips, Edwards urges to
rely on Arias v. Cameron, 776 F.3d 1262 (11th Cir.
2015). In Arias, we held that a district court did not
abuse its discretion by allowing the plaintiff to
1

Edwards argues that our holding in Phillips does not
extend to the FDCPA because FTCA plaintiffs may only bring
claims in federal court, whereas the FDCPA permits claims to be
ﬁled in state and federal court. And he points out that the FTCA
involves a specific waiver of sovereign immunity, which the FDCPA
does not include, and therefore the FTCA’s statute of limitations
provision is construed more strictly than the one at issue here.
But Edwards does not present any authority showing that either
distinction matters. Moreover, other circuits have also reached
the same holding as Phillips outside the FTCA context. See, e.g.,
E.E.O.C. v. W.H. Braum, Inc., 347 F.3d 1192, 1201 (10th Cir.
2003) (explaining that “[t]he federal scheme is complete and it is
inappropriate to import state statutes of limitations, such as a
savings clause, to time-bar an individual aggrieved employee under the ADA”); Beck v. Caterpillar Inc., 50 F.3d 405, 407 (7th Cir.
1995) (“Where, as [in this hybrid suit under § 301 of the Labor
Management Relations Act], the plaintiff voluntarily dismisses a
lawsuit which was brought in federal court, asserts a purely federal claim, and is subject to a federal statute of limitations, state
savings statutes do not apply.”); Garrison v. Int’l Paper Co., 714
F.2d 757, 759 n.2 (8th Cir. 1983) (noting that “[b]ecause Title VII
actions are governed by a federal statute of limitations, the Arkansas saving clause is inapplicable”).

App. 7
voluntarily dismiss his state law tort claim, which had
been removed to federal court by the defendants, regardless of whether dismissal prejudiced defendants
by stripping the defendants’ statute of limitations defense. Id. at 1273. In reaching that conclusion, we observed that the defendant would likely not have had a
statute of limitations defense if the defendant had not
removed the case to federal court because the plaintiff
could have invoked Georgia’s renewal statute in state
court. Id. at 1272. Thus, Edwards claims that Solomon
and Solomon created the statute of limitations defense
by removing his claims to federal court and if they had
not, his suit would have been timely under Georgia
law.
Edwards’s reliance on Arias is misplaced. Unlike
this case, which concerns a federal claim where Congress has set the applicable statute of limitations,
Arias concerned a state law tort claim where the state
legislature set the statute of limitations. Id. at 1265.
Thus, Arias is of no help to Edwards.
In conclusion, because the Georgia renewal statute does not apply to federal causes of action where
Congress expressly set a limitations period, such as the
FDCPA, we afﬁrm the district court’s dismissal of his
complaint.
AFFIRMED.

App. 8
UNITED STATES COURT OF APPEALS
For the Eleventh Circuit
-----------------------------------------------------------------------

No. 20-11148
-----------------------------------------------------------------------

District Court Docket No.
4:19-cv-00299-HLM
DOUGLAS EDWARDS,
Plaintiff - Appellant,
versus
SOLOMON AND SOLOMON, P.C.,
Defendant - Appellee.
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Northern District of Georgia
-----------------------------------------------------------------------

JUDGMENT
It is hereby ordered, adjudged, and decreed that the
opinion issued on this date in this appeal is entered as
the judgment of this Court.
Entered: September 30, 2020
For the Court: DAVID J. SMITH, Clerk of Court
By: Djuarma H. Clark
ISSUED AS MANDATE 10/29/2020

App. 9
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ROME DIVISION
DOUGLAS EDWARDS,
Plaintiff,
v.

CIVIL ACTION FILE NO.
4:19-CV-0299-HLM-WEJ

SOLOMON AND
SOLOMON, P.C.,
Defendant.

ORDER
(Filed Apr. 2, 2020)
This case is before the Court on Plaintiff ’s Motion
to Stay Enforcement of Bill of Costs [21].
I.

Background

On February 21, 2020, the Court adopted the Final
Report and Recommendation of United States Magistrate Judge Walter E. Johnson, overruled Plaintiff ’s
Objections, granted Defendant’s Motion to Dismiss,
and dismissed this action as time-barred. (Order of
Feb. 21, 2020 (Docket Entry No. 17).) On that same day,
the Clerk entered judgment. (Judgment (Docket Entry
No. 18).)
On February 24, 2020, Defendant ﬁled a Bill of
Costs. (Bill of Costs (Docket Entry No. 19).) The Clerk
has not yet taxed costs in this action. (See generally
Docket.)

App. 10
On March 19, 2020, Plaintiff ﬁled a Notice of Appeal. (Notice of Appeal (Docket Entry No. 20).) On that
same day, Plaintiff ﬁled a Motion to Stay Enforcement
of Bill of Costs. (Mot. Stay Enforcement Bill of Costs
(Docket Entry No. 21).) Defendant ﬁled a response to
that Motion. (Resp. Mot. Stay Enforcement Bill of
Costs (Docket Entry No. 26).) The Court ﬁnds that no
reply from Plaintiff is necessary, and it concludes that
the matter is ripe for resolution.
II.

Discussion

As an initial matter, Plaintiff ’s Motion does not
comply with the Local Rules because Plaintiff failed to
attach a brief supporting the Motion. N.D. Ga. 7.1A.
Ordinarily, the Court would deny the Motion without
prejudice and would require Plaintiff to re-ﬁle it with
an accompanying brief. The Court will make an exception to its usual practice in this one instance, and it
will accept the Motion as ﬁled. The Court, however,
cautions counsel that it expects counsel to comply with
the Local Rules for all future ﬁlings.
The Court agrees with Defendant that Plaintiff ’s
Motion is technically premature, as the Clerk has not
yet taxed costs in this action. The Court also notes that
Plaintiff ’s argument that the Court should not require
Plaintiff to post an appeal bond is moot because Defendant has not sought an appeal bond in this action.
The Court will, however, direct the Clerk to stay the
taxation of costs in this action pending the resolution
of Plaintiff ’s appeal.

App. 11
III. Conclusion
ACCORDINGLY, the Court DENIES AS MOOT
AND WITHOUT PREJUDICE Plaintiff ’s Motion to
Stay Enforcement of Bill of Costs [21]. The Motion is
premature, as the Clerk has not yet taxed costs. To the
extent that Plaintiff requests that the Court waive an
appeal bond, this request is moot because Defendant
has not sought to require Plaintiff to post an appeal
bond. The Court DIRECTS the Clerk to STAY the taxation of costs in this matter pending the resolution of
Plaintiff ’s appeal.
IT IS SO ORDERED, this the 2nd day of April,
2020.
/s/ Harold L. Murphy
SENIOR UNITED STATES
DISTRICT JUDGE

App. 12
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ROME DIVISION
DOUGLAS EDWARDS,
Plaintiff,
v.
SOLOMON AND
SOLOMON, P.C.,

CIVIL ACTION FILE NO.
4:19-CV-0299-HLM-WEJ

Defendant.
ORDER
(Filed Feb. 21, 2020)
This case is before the Court on Defendant’s Motion to Dismiss for Failure to State a Claim (“Motion to
Dismiss”) [2], on the Final Report and Recommendation of United States Magistrate Judge Walter E. Johnson [14], and on Plaintiff ’s Objections to the Final
Report and Recommendation [16].
I.

Standard of Review

28 U.S.C. § 636(b)(1) requires that in reviewing a
magistrate judge’s report and recommendation, the
district court “shall make a de novo determination of
those portions of the report or speciﬁed proposed ﬁndings or recommendations to which objection is made.”
28 U.S.C. § 636(b)(1). The Court therefore must conduct a de novo review if a party ﬁles “a proper, speciﬁc
objection” to a factual ﬁnding contained in the report
and recommendation. Macort v. Prem, Inc., 208 F. App’x

App. 13
781, 784 (11th Cir. 2006); Jeffrey S. by Ernest S. v. State
Bd. of Educ., 896 F.2d 507, 513 (11th Cir. 1990). If no
party ﬁles a timely objection to a factual ﬁnding in the
report and recommendation, the Court reviews that
ﬁnding for clear error. Macort, 208 F. App’x at 784. Legal conclusions, of course, are subject to de novo review
even if no party speciﬁcally objects. United States v.
Keel, 164 F. App’x 958, 961 (11th Cir. 2006); United
States v. Warren, 687 F.2d 347, 347 (11th Cir. 1982).
II.

Background

Judge Johnson accurately set forth the background facts for this action. The Court incorporates
that portion of the Final Report and Recommendation
into this Order as if set forth fully herein. (Final Report
& Recommendation (Docket Entry No. 14) at 1-2.)
On January 6, 2020, Defendant ﬁled its Motion to
Dismiss. (Mot. Dismiss (Docket Entry No. 2).) On February 4, 2020, Judge Johnson issued his Final Report
and Recommendation. (Docket Entry No. 14.) Judge
Johnson recommended that the Court grant Defendant’s Motion to Dismiss. (See generally id.)
Plaintiff ﬁled Objections to the Final Report and
Recommendation. (Objs. (Docket Entry No. 16).) The
Court ﬁnds that no response to those Objections from
Defendant is necessary, and it concludes that the matter is ripe for resolution.

App. 14
III. Motion to Dismiss Standard
The Court applies the same standard as set forth
in the Final Report and Recommendation when reviewing this Motion to Dismiss. (Final Report & Recommendation at 2.)
IV. Discussion
Judge Johnson properly determined that Plaintiff’s
claims are time-barred. (Final Report & Recommendation at 2-7.) Specifically, the Fair Debt Collection Practices Act (the “FDCPA”) has a one-year statute of
limitations. (Id. at 3.) All of the FDCPA violations alleged by Plaintiff occurred more than a year and a day
before Plaintiff ﬁled this Complaint. (Id.) Georgia’s
savings statute, O.C.G.A. § 9-2-61, does not apply here.
(Id. at 3-7.) In this Circuit, it is “clear that when a statute of limitations is set by Congress it cannot be extended by state law.” (Id. at 5 (collecting cases).) The
Court agrees with Judge Johnson that “Congress set
the statute of limitations for the FDCPA, and allowing
Plaintiff to use the Georgia savings statute would undermine the uniformity intended by Congress.” (Id.
at 7.) Judge Johnson correctly found that the Georgia
savings statute does not make Plaintiff ’s FDCPA
claims in this case timely. With all due respect to Plaintiff, nothing in his Objections warrants a different conclusion. (Objs.) The Court therefore adopts the Final
Report and Recommendation, overrules Plaintiff ’s Objections, and grants Defendant’s Motion to Dismiss.

App. 15
V.

Conclusion

ACCORDINGLY, the Court ADOPTS the Final
Report and Recommendation of United States Magistrate Judge Walter E. Johnson [14], OVERRULES
Plaintiff ’s Objections to the Final Report and Recommendation [16], GRANTS Defendant’s Motion to Dismiss [2], and DISMISSES this action as time-barred.
The Court DIRECTS the Clerk to CLOSE this case
IT IS SO ORDERED, this the 21st day of February,
2020.
/s/ Harold L. Murphy
SENIOR UNITED STATES
DISTRICT JUDGE

App. 16
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ROME DIVISION
DOUGLAS EDWARDS,
Plaintiff,
CIVIL ACTION FILE

v.
SOLOMON AND
SOLOMON, P.C.,

NO. 4:19-CV-0299-HLM-WEJ

Defendant.
FINAL REPORT AND RECOMMENDATION
(Filed Feb. 4, 2020)
I.

PROCEDURAL BACKGROUND

Plaintiff originally ﬁled this case on April 26, 2019
in the Superior Court of Bartow County, Georgia asserting a violation of the Fair Debt Collection Practices
Act (“FDCPA”), 15 U.S.C. §§ 1692e, 1692k, against Solomon and Solomon, P.C. (“Solomon”). (See Pl.’s Resp.
[7] 8.) On May 30, 2019, Solomon removed that case to
federal court. (See id. at 17-8.) Plaintiff, pursuant to
Federal Rule of Civil Procedure 41(a)(1)(A)(i), voluntarily dismissed the suit without prejudice that same
day and paid court costs. (See id. at 22.)
On November 27, 2019, plaintiff again ﬁled this
case in the Superior Court of Bartow County, Georgia,
asserting the same substantive claims as contained in
his April 26, 2019 complaint. (See id. at 25; Compl. [12].) Defendant again removed the case on December

App. 17
30, 2019. (Notice of Removal [1].) Now pending before
the Court is defendant Solomon’s Motion to Dismiss for
Failure to State a Claim [2]. For reasons discussed below, the undersigned RECOMMENDS that defendant’s Motion be GRANTED.
II.

STANDARD OF REVIEW

Federal Rule of Civil Procedure 12(b)(6) allows the
Court to dismiss a complaint, or portions thereof, for
“failure to state a claim upon which relief can be
granted.” Fed. R. Civ. P. 12(b)(6). “[A] Rule 12(b)(6) dismissal on statute of limitations grounds is appropriate
only if it is apparent from the face of the complaint that
the claim is time-barred.’ ” Bruce v. U.S. Bank Nat’l
Ass’n, 770 F. App’x 960, 965 (11th Cir. 2019) (per curiam) (quoting La Grasta v. First Union Sec., Inc., 358
F.3d 840, 845 (11th Cir. 2004)).
III. DISCUSSION
Defendant Solomon argues that the Complaint is
due to be dismissed because plaintiff s claim is barred
by the FDCPA’s statute of limitations. (See Def.’s Br. [21], Def.’s Reply Br. [9].) Plaintiff opposes the motion,
arguing that Georgia’s “savings statute,” O.C.G.A. § 92-61, prevents his claims from being time-barred. (See
Pl.’s Resp. [7].)1

1

Plaintiff also ﬁled a Sur-Reply [10] to defendant’s Reply
Brief. Neither the Federal Rules of Civil Procedure nor the Local
Rules permit such sur-replies without prior authorization from

App. 18
The FDCPA has a one-year statute of limitations.
Id. at 965; 15 U.S.C. § 1692k(d). This is calculated as
one year and one day from the date of the alleged violation. See Maloy v. Phillips, 64 F.3d 607 (11th Cir.
1995) (per curiam).
In this case, every alleged FDCPA violation occurred more than one year and a day before plaintiff
ﬁled the instant Complaint on November 27, 2019.
Counts I, III, V, VII, and IX allegedly occurred on May
1, 2018. (Compl. [1-2] 8- 19.) Counts II, IV, VI, VII, and
X allegedly occurred on May 25, 2018. (Id.) Counts XI
and XII allegedly occurred on July 23, 2018. (Id. at 1921.) From the face of the Complaint, every alleged violation occurred before November 26, 2018 and thus are
barred by the FDCPA’s one-year statute of limitations.
Despite his claims being facially time-barred,
plaintiff argues that he may pursue them because of
O.C.G.A. § 9-2-61, commonly referred to as Georgia’s
“savings statute.” Section 9-2-61 states in relevant part
as follows:
[w]hen any case has been commenced in either a state or federal court within the applicable statute of limitations and the plaintiff
discontinues or dismisses the same, it may be
recommenced in a court of this state or in a
federal court either within the original applicable period of limitations or within six

the Court. Thus, the Court excludes plaintiffs Sur-Reply from its
consideration.

App. 19
months of its discontinuance or dismissal,
whichever is later . . .
Plaintiff argues that because he complied with
O.C.G.A. § 9-2-61 by voluntarily dismissing his April
26, 2019 FDCPA claims and re-ﬁling them in November 26, 2019 (within six months of his May 30, 2019
voluntary dismissal), his claims are not time-barred
due to the Georgia savings statute.
In support of his argument, plaintiff cites only to
Arias v. Cameron, 776 F.3d 1262 (11th Cir. 2015). In
Arias, a bicyclist sued a business and its employee
under state tort law to recover for injuries suffered in
a collision with a car. Id. Defendants argued that the
district court abused its discretion in granting plaintiff
a dismissal because, inter alia, defendant had been
legally prejudiced by losing its statute of limitations
defense. In deciding that the district court did not
abuse its discretion in granting plaintiffs dismissal,
the Circuit noted that, had the case stayed in state
court, defendants would likely not have had a statute
of limitations defense because plaintiff could have
taken advantage of Georgia’s savings statute. Id.
at 1272.2 The Circuit further noted that “defendants
effectively ‘created’ the very statute-of-limitations

2

The Circuit’s discussion of the Georgia savings statute here
is dicta. The Circuit’s decision turned on whether plaintiff s service of process related back to the date of ﬁling such that the suit
was timely rather than plaintiff s reliance on Georgia’s savings
statute. See Arias, 776 F.3d at 1269-71.

App. 20
defense that they now complain that they have been
‘stripped’ of ’ by removing to federal court. Id. at 1273.
Plaintiff ’s sole reliance on Arias is misplaced.
First, the Circuit’s discussion of Georgia’s six-month
reﬁling provision was merely an accurate summary of
state law—had the tort case remained in state court,
plaintiff could have dismissed and re-ﬁled within six
months without being barred by the statute of limitations. Furthermore, the Circuit noted that by removing
to federal court, defendants had arguably “created”
the statute of limitations defense. Arias, 776 F.3d at
1273. Thus, the Circuit implied that plaintiff may not
have been able to take advantage of Georgia’s sixmonth refiling provision precisely because the case
was removed to federal court. See id. Finally, and most
importantly, Eleventh Circuit precedent is clear that
when a statute of limitations is set by Congress it cannot be extended by state law. See Phillips v. U.S., 260
F.3d 1316 (11th Cir. 2001) (plaintiff could not take advantage of Georgia savings statute in Federal Tort
Claims Act case); Ingmire v. Target Corp., 520 F. App’x
832 (11th Cir. 2013) (per curiam) (plaintiff could not
take advantage of Georgia savings statute in Age Discrimination in Employment Act case); Weldon v. Elec.
Data Sys. Com., 138 F. App’x 136, 138 (11th Cir. 2015)
(per curiam) (plaintiff could not take advantage of
Georgia savings statute in Title VII case); see also
Bruce v. Homeward Residential, Inc., 1:14-CV-03325MHC-AJB, 2015 U.S. Dist. LEXIS 138766 (N.D. Ga.
Aug. 5, 2015), R&R adopted by, 2015 U.S. Dist. LEXIS

App. 21
138203 (N.D. Ga. Aug. 31, 2015) (savings statute was
not applicable to Fair Credit Reporting Act case).
Unlike the instant case, which deals with a federal
claim and a statute of limitations set by Congress,
Arias dealt with a state law claim where the statute of
limitations was set by the state. Thus, Arias is inapplicable to the case at bar. Additionally, the same concerns
present in Phillips are present here. To allow plaintiff
to take advantage of Georgia’s savings statute would
undermine the uniformity intended by Congress’s oneyear statute of limitations for FDCPA claims. See Phillips, 260 F.3d at 1319; Ingmire, 520 F. App’x at 833.
Thus, federal courts look to state law to determine a
limitations period for a federal cause of action “only
when Congress has failed to provide a statute of limitations[,]” which is simply not the case for the FDCPA.
Phillips, 260 F.3d at 1318; accord Ingmire, 520 F. App’x
at 833.
Therefore, because Congress set the statute of limitations for the FDCPA and allowing plaintiff to use
the Georgia savings statute would undermine the uniformity intended by Congress, plaintiff s claims are
barred by the FDCPA’s one-year statute of limitations.
Accordingly, the undersigned RECOMMENDS that
defendant’s Motion be GRANTED.
IV. CONCLUSION
For reasons discussed above, the undersigned
RECOMMENDS that the Motion to Dismiss [2] be
GRANTED.

App. 22
The Clerk is DIRECTED to terminate the reference to the Magistrate Judge.
SO RECOMMENDED, this 4th day of February,
2020.
/s/ Walter E. Johnson
UNITED STATES
MAGISTRATE JUDGE

App. 23
IN THE SUPERIOR COURT
OF BARTOW COUNTY
STATE OF GEORGIA
DOUGLAS EDWARDS,
Plaintiff,
vs.
SOLOMON AND
SOLOMON P.C.,
Defendant,

)
)
)
)
)
)
)
)

Civil Action File No.
SUCV2019000510

DEFENDANT’S NOTICE OF
REMOVAL TO FEDERAL COURT
(Filed May 30, 2019)
TO: Clerk, Superior Court of Bartow County
135 W. Cherokee Ave # 233
Cartersville, Georgia 30120
Please take notice that, pursuant to 28 U.S.C.
§ 1441, Defendant Solomon and Solomon P.C. has removed the above-styled civil action from this Court to
the United States District Court for the Northern District of Georgia, Rome Division. A copy of the Notice of
Removal ﬁled in the United States District Court for
the Northern District of Georgia, Rome Division is attached hereto. No further proceedings in this case in
the Superior Court of Bartow County, State of Georgia
shall be had.

App. 24
Respectfully submitted this 30th day of May, 2019.
BEDARD LAW GROUP, P.C.,
/s/ Jonathan K. Aust
Jonathan K. Aust
Georgia Bar No. 448584
John H. Bedard, Jr.
Georgia Bar No. 043473
Counsel for Defendant
4855 River Green Parkway, Suite 310
Duluth, GA 30096
Phone: (678) 253-1871
jaust@bedardlawgroup.com
jbedard@bedardlawgroup.com

CERTIFICATE OF SERVICE
This is to certify that I have this date served a copy
of the within and foregoing Defendant’s Notice of Removal to Federal Court by depositing a copy of the
same in the United States Mail in a properly addressed
envelope with adequate postage thereon to:
Rory K. Starkey
Hilliard Starkey Law
1245 Veterans Memorial Hwy, SW Suite 49
Mableton, Georgia 30126

App. 25
Respectfully submitted this 30th day of May, 2019.
BEDARD LAW GROUP, P.C.,
/s/ Jonathan K. Aust
Jonathan K. Aust
Georgia Bar No. 448584
John H. Bedard, Jr.
Georgia Bar No. 043473
Counsel for Defendant

App. 26
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ROME DIVISION
DOUGLAS EDWARDS,
Plaintiff,
vs.
SOLOMON AND
SOLOMON P.C.,
Defendant,

)
)
)
)
)
)
)
)

Civil Action File No.

DEFENDANT’S NOTICE OF REMOVAL
TO:
The United States District
Court for the Northern
District of Georgia,
Rome Division

Rory K. Starkey
Hilliard Starkey Law
1245 Veterans
Memorial Hwy, SW
Suite 49
Mableton, Georgia 30126

PLEASE TAKE NOTICE that, pursuant to 28
U.S.C. §§1446(a) and (b), the Defendant Solomon and
Solomon P.C. hereby removes this case to the United
States District Court for the Northern District of Georgia, Rome Division based on the following grounds:
1. This action is removable to the United States
District Court under 28 U.S.C. § 1331 and 1441 on the
grounds of federal question jurisdiction, in that the
complaint purports to allege a cause of action under

App. 27
the Fair Debt Collection Practices Act, 15 U.S.C.
§ 1692, et seq.
2. Pursuant to 28 U.S.C. § 1446(b), this Notice of
Removal is ﬁled within thirty days after Defendant’s
receipt of the initial pleadings setting forth the claim
for relief upon which this action is based.
3. Pursuant to 28 U.S.C. § 1446(a), attached
hereto as Exhibit “A” are copies of the following documents, which are all the process, pleadings and orders
received by one or more Defendants in this action, to
wit: Please ﬁnd documents attached hereto as Exhibit
“A.”
4. Upon receipt of this Notice, no further action
shall be taken in the Superior Court of Bartow County,
State of Georgia.
5. By ﬁling this Notice of Removal, the Defendant demonstrates its consent to the removal of the case
to this Court.
Respectfully submitted this 30th day of May, 2019.
BEDARD LAW GROUP, P.C.,
/s/ Jonathan K. Aust
Jonathan K. Aust
Georgia Bar No. 448584
John H. Bedard, Jr.
Georgia Bar No. 043473
Counsel for Defendant

App. 28
4855 River Green Parkway, Suite 310
Duluth, GA 30096
Phone: (678) 253-1871
jaust@bedardlawgroup.com
jbedard@bedardlawgroup.com

CERTIFICATE OF SERVICE
This is to certify that I have this date served a copy
of the within and foregoing Defendant’s Notice of Removal by depositing a copy of the same in the United
States Mail in a properly addressed envelope with adequate postage thereon to:
Rory K. Starkey
Hilliard Starkey Law
1245 Veterans Memorial Hwy, SW
Suite 49
Mableton, Georgia 30126
Respectfully submitted this 30th day of May, 2019.
BEDARD LAW GROUP, P.C.,
/s/ Jonathan K. Aust
Jonathan K. Aust
Georgia Bar No. 448584
John H. Bedard, Jr.
Georgia Bar No. 043473
Counsel for Defendant

EXHIBIT A

App. 29
General Civil and Domestic Relations Case
Filing Information Form
🗹 Superior or ⬜ State Court of Bartow County
For Clerk Use Only
Date Filed

04-26-2019
MM-DD-YYYY

Case Number SUCV2019000510
Plaintiff(s)
Edwards, Douglas
Last
First

Middle I.

Sufﬁx

Preﬁx

Last

First

Middle I.

Sufﬁx

Preﬁx

Last

First

Middle I.

Sufﬁx

Preﬁx

Last

First

Middle I.

Sufﬁx

Preﬁx

Solomon and, Solomon P.C.
Last
First
Middle I.

Sufﬁx

Preﬁx

Last

First

Middle I.

Sufﬁx

Preﬁx

Last

First

Middle I.

Sufﬁx

Preﬁx

Last

First

Middle I.

Sufﬁx

Preﬁx

Defendant(s)

Plaintiff ’s Attorney
Bar Number 676450

Starkey, Rory
Self-Represented ⬜

App. 30
Check One Case Type in One Box
General Civil Cases
⬜ Medical Malpractice Tort
⬜ Product Liability Tort
⬜ Automobile Tort
🗹 General Tort
⬜ Contract
⬜ Real Property
⬜ Civil Appeal
⬜ Habeas Corpus
⬜ Restraining Petition
⬜ Injunction/Mandamus/Other Writ
⬜ Garnishment
⬜ Landlord/Tenant
⬜ Other General Civil
Domestic Relations Cases
⬜ Dissolution/Divorce/Separate Maintenance
⬜ Paternity/Legitimation
⬜ Support – IV-D
⬜ Support – Private (non-IV-D)
⬜ Adoption
⬜ Family Violence Petition
⬜ Other Domestic Relations
Post-Judgement – Check One Case Type
⬜

Contempt
⬜ Non-payment of child support, medical
support, or alimony.
⬜ Modiﬁcation
⬜ Administrative/Other

App. 31
⬜

Check if the action is related to another action(s)
pending or previously pending in this court involving some or all the same parties, subject matter,
or factual issues. If so, provide a case number for
each.
Case Number

Case Number

🗹

I hereby certify that the documents in this ﬁling,
including attachments and exhibits, satisfy the requirements for redaction of personal or conﬁdential information in O.C.G.A. §9-11-7.1.

⬜

Is interpreter needed in this case? If so, provide
the language(s) required.
Language(s) Needed

⬜

Do you or your client need any disability accommodations? If so, please describe the accommodation request.

App. 32
IN THE SUPERIOR COURT OF
BARTOW COUNTY
STATE OF GEORGIA
DOUGLAS EDWARDS,

)
)
)
)
)
)
)
)

Plaintiff,
vs.
SOLOMON AND
SOLOMON P.C.,
Defendants.

Civil Action
No.
(Filed Apr. 26, 2019)

COMPLAINT
Plaintiff, Douglas Edwards, hereby complains
against Defendant, Solomon and Solomon P.C., for violations of the Federal Debt Consumer Protection Act.
PARTIES
1.
Plaintiff, Douglas Edwards is a resident of Bartow
County, Georgia.
2.
Defendant, Solomon and Solomon, P.C., is a New
York corporation, located at 5 Columbia Circle, Albany
NY 12203.

App. 33
3.
Defendant Solomon and Solomon P.C. is a law ﬁrm
in New York.
JURISDICTION AND VENUE
4.
This Court has subject matter jurisdiction over
this matter pursuant to F.D.C.P.A Sections 807(2)(a)
and 813(d).
5.
This Court may exercise personal jurisdiction over
the Defendants because the Defendants committed a
tortious act or omission within this state, O.C.G.A. § 910-91.
6.
Venue is proper in Bartow County because venue
shall lie in any county wherein a substantial part of
the business was transacted, the tortious act, omission,
or injury occurred. O.C.GA. § 9-10-93.
FACTS
7.
Plaintiff Douglas Edwards borrowed a total of
$47,094 over the course of seven years for the furtherance of his dentistry education at an eight percent

App. 34
interest rate. He borrowed $2,500 every year from October 1984 through January 1991, except in August
1989 where he borrowed $11,500. Mr. Edwards also
borrowed an additional $11,500 in September 1990
and September 1991. The primary lender on all the
loans was Chemical Bank.
8.
After graduation, Mr. Edwards was unable to afford the loan on his meager dental assistance salary so
he defaulted on the loan.
9.
On April 05, 1999, New York State Higher Education Services Corporation “NYSHE”, the guarantor of
the loan, obtained a judgment on a portion of Mr. Edwards’ loan totaling $21,719.89. He paid off the judgment portion in February, 2009. He has paid $67,500
towards the non judgment portion of his loan yet Solomon and Solomon P.C. has refused to provide the principal amount on the debt.
10.
Solomon and Solomon P.C. was the designated
debt collector for the non-judgement portion of the loan
for NYSHE.

App. 35
11.
On June, 1999 Solomon and Solomon P.C. contacted Mr. Edwards about the repayment of his loan.
That communication failed to include the principal
amount. Furthermore, Solomon and Solomon P.C.’s
failed to include mandatory statutory language informing the consumer of his or her right to dispute the
debt in its ﬁrst communication or within thirty days of
its ﬁrst communication. Section 809. Section 809(a)(4)
requires the debt collector to notify the consumer of his
or her right to dispute the debt within thirty days of its
ﬁrst communication.
12.
Mr. Edwards made his ﬁrst payment of $300 to
Solomon and Solomon P.C. on July 20, 1999 shortly after receiving his dentistry license. He has paid $67,500
to Solomon and Solomon P.C. over the past nineteen
years yet he has not seen a reduction in the amount
owed on the loan.
13.
Over the past nineteen years, Mr. Edwards inquired about the principal amount of the loan from
Solomon and Solomon P.C. and was given the runaround for several years. He was even told by a representative of Solomon and Solomon P.C. that they did
not know the principal amount on Mr. Edwards’ loan
which is absurd.

App. 36
14.
Furthermore, in all the debt correspondences from
Solomon and Solomon P.C., Solomon and Solomon P.C.
failed to include a principal amount obstructing Mr.
Edwards from obtaining the true nature of his loan.
15.
Mr. Edwards has been diligent in the payment of
his loans for the past nineteen years and should have
paid off his debt or at least drastically reduced his debt
since the initial payment.
16.
Unfortunately, Mr. Edwards has been in fear of
constant wage garnishment from an invalid loan.
CLAIMS
VIOLATION OF FAIR DEBT COLLECTION
PRACTICES ACT (FDCPA)
I.

VIOLATION OF FDCPA § 807(2)
FALSE REPRESENTATION OF
THE STATUS OF DEBT
17.

Plaintiff restates and incorporates paragraphs 716.

App. 37
18.
Section 807(2) prohibits debt collectors from
falsely representing the character, legal status, or
amount of a debt.
19.
Solomon and Solomon P.C. did not state the principal amount in its ﬁrst communication with Mr. Edwards on June 05, 1999. Neither did it notify Mr.
Edwards of his right to dispute the debt within thirty
days of its ﬁrst communication to Mr. Edwards.
20.
Mr. Edwards also contacted Solomon and Solomon
P.C. several times to inquire about the principal
amount of the debt and was rebuffed. A Solomon and
Solomon P.C. representative also told Mr. Edwards
that Solomon and Solomon P.C. was unaware of the
principal amount of the debt.
21.
All correspondences between Mr. Edwards and
Solomon and Solomon P.C. omit the principal debt
amount.
22.
Although Mr. Edwards has paid $67,500 to Solomon
and Solomon P.C., his balance never reduced.

App. 38
23.
In so doing the described actions, Defendant’s
knowingly and falsely represented the amount of the
debt. The failure to include the principal amount of the
debt was a ploy by Solomon and Solomon P.C. to ensure
that Mr. Edwards would be indebted forever preventing him from knowing the true character of his loan
and preventing him from making intelligent choices on
eliminating his debt.
DAMAGES
24.
Because of Defendants actions, Mr. Edwards has
suffered great emotional distress.
25.
Solomon and Solomon P.C.’s intentional omission
of the principal amount has put Mr. Edwards in constant fear of garnishment of wages for a debt that
should have been paid off.
PRAYER
Whereby Petitioner prays for:
(a) actual damages, including any overpayments
to Solomon and Solomon P.C.
(b) an award of nominal damages in the amount
of $1,000.

App. 39
(c) all reasonably attorney’s fees
(d) and all costs.
Respectfully submitted on this the 26th day of April
2019.
/s/ R. K. Starkey
Rory K, Starkey, Esq.
Georgia Bar No.: 676450
Counsel for Plaintiff
Hilliard Starkey Law
1245 Veterans Memorial Hwy, SW
Suite 49
Mableton, GA 30-426
(678) 909-2096 (Ofﬁce)
(678) 623-5767 (Facsimile)
rkstarkey@hstarlaw.com

App. 40
AFFIDAVIT OF SERVICE
SUPERIOR COURT
Index #:
STATE OF GEORGIA, SUCV2019-000510
COUNTY OF BARTOW Date Filed:
EFILED IN OFFICE
Court Date:
CLERK OF SUPERIOR
COURT BARTOW
COUNTY, GEORGIA
Assigned Justice:
SUCV2019000510
File No.:
MAY 03, 2019 02:20 PM
Edwards, Douglas
Plaintiff(s)/Petitioner(s)
VS.
Solomon and Solomon P.C.
Defendant(s)/Respondent(s)
STATE OF New York

, COUNTY OF ALBANY SS.:

Felix Correa , being duly sworn deposes and says:
Deponent is not a party herein, is over 18 years of age
and resides in New York. On Wednesday, May 1, 2019
at 10:33 AM.
at c/o Solomon & Solomon, 1 Columbia Circle, Albany,
NY 12203 deponent served the within Summons and
Complaint with Plaintiffs First Notice to Produce and
Request for Production of Documents to Defendant

App. 41
on: Julie B Solomon

Defendant therein named.

INDIVIDUAL By delivering a true copy of each to
#1
[X]
said recipient personally; deponent
knew the person served to be the person described as said person. Said
premises is subjects [X] actual place
of business [ ] dwelling house (usual
place of abode) within the state.
DESCRIPTION A description of the Defendant, or
other person served, or spoken to on
#2
[X]
behalf of the Defendant is as follows:
(use with
#1, 2 or 3) Sex: Female Color of skin: White
Color of hair: Black Age: 50
Height: 4'11" Weight: 140
Other Features:
#3 WIT. FEES $ the authorized witness fee and / or
[ ]
traveling expenses were paid (tendered) to the recipient.
#4 MILITARY Your deponent asked person spoken
SRVC
to whether the defendant was in the
active military service of the United
[X]
States or New York and received a
negative reply. Upon information and
belief I have; being based on the conversation and observations above
narrated, defendant is not in the military service.
#5 OTHER
[ ]
#6 MAIL COPY On
, deponent
[ ]
completed service by depositing a
true copy of each document the above

App. 42
address in a 1st Class postpaid
properly addressed envelope not indicating that mailing was from an attorney or concerned legal action and
marked “Personal and Conﬁdential”
in an ofﬁcial depository under the exclusive care and custody of the United
States Post Ofﬁce in the State of New
York.
Certiﬁed Mail #:
Sworn to before me on this 1st day of May 2019
/s/ Heather Morigeralo
Heather Morigeralo
Notary Public, Stale of New York
No. 01M06261464
Qualiﬁed In Albany County
Commission Expires May 14, 2020
/s/ Felix Correa
Felix Correa
Job # S1822492
SERVICO, INC., P.O. Box 871, ALBANY, NY 12201

App. 43
SUPERIOR COURT OF BARTOW COUNTY
BARTOW COUNTY, GEORGIA
CIVIL ACTION NUMBER SUCV2019000510
Edwards, Douglas
PLAINTIFF
VS.
Solomon and, Solomon P.C.
DEFENDANT
SUMMONS
TO THE ABOVE NAMED DEFENDANT:
You are hereby summoned and required to ﬁle with the
Clerk of said court and serve upon the Plaintiffs attorney, whose name and address is:
Rory Starkey
Hilliard Starkey Law
1245 Verterans Memorial Hwy SW Suite 49
Mabelton, Georgia 30126
an answer to the complaint which is herewith served
upon you, within 30 days after service of this summons
upon you, exclusive of the day of service. If you fail to
do so, judgment by default will be taken against you
for the relief demanded in the complaint.

App. 44
This 26th day of April, 2019.
Clerk of Superior Court
/s/ Melba Scoggins
Melba Scoggins, Clerk
Bartow County, Georgia

App. 45
JS44 (Rev. 6/2017 NDGA)
CIVIL COVER SHEET
The JS44 civil cover sheet and the information contained herein neither replace nor supplement the ﬁling
and service of pleadings or other papers as required by
law, except as provided by local rules of court. This
form is required for the use of the Clerk of Court for
the purpose of initiating the civil docket record. (SEE
INSTRUCTIONS ATTACHED)
I. (a) PLAINTIFF(S)

DEFENDANT(S)

Douglas Edwards

Solomon and Solomon P.C.

(b) COUNTY OF RESI- COUNTY OF RESIDENCE OF FIRST
DENCE OF FIRST
LISTED PLAINTIFF LISTED DEFENDANT
Bartow
(EXCEPT IN U.S. PLAINTIFF
(IN U.S. PLAINTIFF CASES
CASES)
ONLY)
NOTE: IN LAND CONDEMNATION CASES, USE THE LOCATION OF THE TRACT OF LAND
INVOLVED

(c) ATTORNEYS (FIRM
NAME, ADDRESS, TELEPHONE
NUMBER, AND E-MAIL
ADDRESS)
Rory K. Starkey. Hilliard
Starkey Law. 1245 Veterans Memorial Hwy, SW
Suite 49 Mableton, Georgia 30126. (678) 909-2096.
rkstarkey@hstarlaw.com

ATTORNEYS (IF KNOWN)
Jonathan K. Aust and
John H. Bedard, Jr.
Bedard Law Group, P.C.
4855 River Green Parkway, Suite 310 Duluth,
Georgia 30096.
(678) 253-1871.
jaust@bedardlawgroup.com
jbedard@bedardlawgroup.com

App. 46
II. BASIS OF JURISDICTION
(PLACE AN “X” IN ONE BOX ONLY)
⬜ 1 U.S. GOVERNMENT PLAINTIFF
⬜ 2 U.S. GOVERNMENT DEFENDANT

🗹 3 FEDERAL QUESTION (U.S. GOVERNMENT NOT A PARTY)
⬜ 4 DIVERSITY (INDICATE CITIZENSHIP OF
PARTIES IN ITEM III)

III. CITIZENSHIP OF PRINCIPAL PARTIES
(PLACE AN “X” IN ONE BOX FOR PLAINTIFF AND ONE BOX
FOR DEFENDANT) (FOR DIVERSITY CASES ONLY)
PLF DEF
⬜1 ⬜1
⬜2 ⬜2
⬜3 ⬜3
PLF DEF
⬜4 ⬜4
⬜5
⬜6

⬜5
⬜6

CITIZEN OF THIS STATE
CITIZEN OF ANOTHER STATE
CITIZEN OR SUBJECT OF A FOREIGN COUNTRY

INCORPORATED OR PRINCIPAL PLACE OF
BUSINESS IN THIS STATE
INCORPORATED AND PRINCIPAL PLACE OF
BUSINESS IN ANOTHER STATE
FOREIGN NATION

IV. ORIGIN (PLACE AN “X “IN ONE BOX ONLY)
⬜ 1 ORIGINAL PROCEEDING 🗹 2 REMOVED FROM STATE
⬜ 3 REMANDED FROM
COURT
APPELLATE COURT
⬜ 4 REINSTATED OR
⬜ 5 TRANSFERRED FROM
REOPENED
ANOTHER DISTRICT
⬜ 6 MULTIDISTRICT LITIGATION – TRANSFER
(Specify District)
⬜ 7 APPEAL TO DISTRICT
⬜ 8 MULTIDISTRICT LITIGATION – DIRECT FILE
JUDGE FROM MAGISTRATE JUDGE JUDGMENT

App. 47
V. CAUSE OF ACTION (CITE

THE U.S. CIVIL STATUTE

UNDER WHICH YOU ARE FILING AND WRITE A BRIEF STATEMENT OF CAUSE

– DO NOT CITE JURISDICTIONAL STATUTES

UNLESS DIVERSITY)

Plaintiff alleges that Defendant violated the Fair Debt
Collection Practices Act (“FDCPA”), 15 U.S.C. 1692 et
seq.
(IF COMPLEX, CHECK REASON BELOW)
⬜ 1. Unusually large
number of parties.
⬜ 2. Unusually large
number of claims or
defenses.
⬜ 3. Factual issues are
exceptionally complex.
⬜ 4. Greater than normal
volume of evidence.
⬜ 5. Extended discovery
period is needed.

⬜ 6. Problems locating or
preserving evidence.
⬜ 7. Pending parallel investigations or actions by government.
⬜ 8. Multiple use of experts.
⬜ 9. Need for discovery
outside United
States boundaries.
⬜ 10. Existence of highly
technical issues and
proof.

CONTINUED ON REVERSE
FOR OFFICE USE ONLY
RECEIPT #

AMOUNT $

JUDGE

MAG. JUDGE
(Referral)

APPLYING IFP

MAG. JUDGE (HP)

NATURE OF SUIT

CAUSE OF ACTION

App. 48
VI. NATURE OF SUIT (PLACE AN “X” IN ONE BOX ONLY)
CONTRACT – “0” MONTHS DISCOVERY TRACK
⬜ 150 RECOVERY OF OVERPAYMENT & ENFORCEMENT OF JUDGMENT
⬜ 152 RECOVERY OF DEFAULTED STUDENT
LOANS (Excl. Veterans)
⬜ 153 RECOVERY OF OVERPAYMENT OF VETERAN’S BENEFITS
CONTRACT – “4” MONTHS DISCOVERY TRACK
⬜ 110 INSURANCE
⬜ 120 MARINE
⬜ 130 MILLER ACT
⬜ 140 NEGOTIABLE INSTRUMENT
⬜ 151 MEDICARE ACT
⬜ 160 STOCKHOLDERS’ SUITS
⬜ 190 OTHER CONTRACT
⬜ 195 CONTRACT PRODUCT LIABILITY
⬜ 196 FRANCHISE
REAL PROPERTY – “4” MONTHS DISCOVERY
TRACK
⬜ 210 LAND CONDEMNATION
⬜ 220 FORECLOSURE
⬜ 230 RENT LEASE & EJECTMENT
⬜ 240 TORTS TO LAND
⬜ 245 TORT PRODUCT LIABILITY
⬜ 290 ALL OTHER REAL PROPERTY
TORTS – PERSONAL INJURY – “4” MONTHS DISCOVERY TRACK
⬜ 310 AIRPLANE
⬜ 315 AIRPLANE PRODUCT LIABILITY

App. 49
⬜
⬜
⬜
⬜
⬜
⬜
⬜
⬜

320
330
340
345
350
355
360
362

ASSAULT, LIBEL & SLANDER
FEDERAL EMPLOYERS’ LIABILITY
MARINE
MARINE PRODUCT LIABILITY
MOTOR VEHICLE
MOTOR VEHICLE PRODUCT LIABILITY
OTHER PERSONAL INJURY
PERSONAL INJURY – MEDICAL MALPRACTICE
⬜ 365 PERSONAL INJURY – PRODUCT LIABILITY
⬜ 367 PERSONAL INJURY – HEALTH CARE/
PHARMACEUTICAL PRODUCT LIABILITY
⬜ 368 ASBESTOS PERSONAL INJURY PRODUCT LIABILITY

TORTS – PERSONAL PROPERTY – “4” MONTHS
DISCOVERY TRACK
⬜ 370 OTHER FRAUD
⬜ 371 TRUTH IN LENDING
⬜ 380 OTHER PERSONAL PROPERTY DAMAGE
⬜ 385 PROPERTY DAMAGE PRODUCT LIABILITY
BANKRUPTCY – “0” MONTHS DISCOVERY TRACK
⬜ 422 APPEAL 28 USC 158
⬜ 423 WITHDRAWAL 28 USC 157
CIVIL RIGHTS – “4” MONTHS DISCOVERY TRACK
⬜ 440 OTHER CIVIL RIGHTS
⬜ 441 VOTING
⬜ 442 EMPLOYMENT
⬜ 443 HOUSING/ ACCOMMODATIONS

App. 50
⬜ 445 AMERICANS with DISABILITIES – Employment
⬜ 446 AMERICANS with DISABILITIES – Other
⬜ 448 EDUCATION
IMMIGRATION – “0” MONTHS DISCOVERY TRACK
⬜ 462 NATURALIZATION APPLICATION
⬜ 465 OTHER IMMIGRATION ACTIONS
PRISONER PETITIONS – “0” MONTHS DISCOVERY
TRACK
⬜ 463 HABEAS CORPUS- Alien Detainee
⬜ 510 MOTIONS TO VACATE SENTENCE
⬜ 530 HABEAS CORPUS
⬜ 535 HABEAS CORPUS DEATH PENALTY
⬜ 540 MANDAMUS & OTHER
⬜ 550 CIVIL RIGHTS – Filed Pro se
⬜ 555 PRISON CONDITION(S) – Filed Pro se
⬜ 560 CIVIL DETAINEE: CONDITIONS OF CONFINEMENT
PRISONER PETITIONS – “4” MONTHS DISCOVERY
TRACK
⬜ 550 CIVIL RIGHTS – Filed by Counsel
⬜ 555 PRISON CONDITION(S) – Filed by Counsel
FORFEITURE/PENALTY – “4” MONTHS DISCOVERY TRACK
⬜ 625 DRUG RELATED SEIZURE OF PROPERTY
21 USC 881
⬜ 690 OTHER

App. 51
LABOR – “4” MONTHS DISCOVERY TRACK
⬜ 710 FAIR LABOR STANDARDS ACT
⬜ 720 LABOR/MGMT. RELATIONS
⬜ 740 RAILWAY LABOR ACT
⬜ 751 FAMILY and MEDICAL LEAVE ACT
⬜ 790 OTHER LABOR LITIGATION
⬜ 791 EMPL. RET. INC. SECURITY ACT
PROPERTY RIGHTS – “4” MONTHS DISCOVERY
TRACK
⬜ 820 COPYRIGHTS
⬜ 840 TRADEMARK
PROPERTY RIGHTS – “8” MONTHS DISCOVERY
TRACK
⬜ 830 PATENT
⬜ 835 PATENT-ABBREVIATED NEW DRUG APPLICATIONS (ANDA) – a/k/a Hatch-Waxman
cases
SOCIAL SECURITY – “0” MONTHS DISCOVERY
TRACK
⬜ 861 HIA (1395f3)
⬜ 862 BLACK LUNG (923)
⬜ 863 DIWC (405(g))
⬜ 863 DIWW (405(g))
⬜ 864 SSID TITLE XVI
⬜ 865 RSI (405(g))
FEDERAL TAX SUITS – “4” MONTHS DISCOVERY
TRACK
⬜ 870 TAXES (U.S. Plaintiff or Defendant)
⬜ 871 IRS – THIRD PARTY 26 USC 7609

App. 52
OTHER STATUTES – “4” MONTHS DISCOVERY
TRACK
⬜ 375 FALSE CLAIMS ACT
⬜ 376 Qui Tam 31 USC 3729(a)
⬜ 400 STATE REAPPORTIONMENT
⬜ 430 BANKS AND BANKING
⬜ 450 COMMERCE/ICC RATES/ETC.
⬜ 460 DEPORTATION
⬜ 470 RACKETEER INFLUENCED AND CORRUPT ORGANIZATIONS
⬜ 480 CONSUMER CREDIT
⬜ 490 CABLE/SATELLITE TV
🗹 890 OTHER STATUTORY ACTIONS
⬜ 891 AGRICULTURAL ACTS
⬜ 893 ENVIRONMENTAL MATTERS
⬜ 895 FREEDOM OF INFORMATION ACT
⬜ 899 ADMINISTRATIVE PROCEDURES ACT /
REVIEW OR APPEAL OF AGENCY DECISION
⬜ 950 CONSTITUTIONALITY OF STATE STATUTES
OTHER STATUTES – “8” MONTHS DISCOVERY
TRACK
⬜ 410 ANTITRUST
⬜ 850 SECURITIES / COMMODITIES / EXCHANGE
OTHER STATUTES – “0” MONTHS DISCOVERY
TRACK
⬜ 896 ARBITRATION
(Conﬁrm / Vacate / Order / Modify)
* PLEASE NOTE DISCOVERY TRACK FOR
EACH CASE TYPE. SEE LOCAL RULE 26.3

App. 53

VII.
⬜

REQUESTED IN COMPLAINT:

CHECK IF CLASS ACTION UNDER F.R.CIV.P.
DEMAND

23

$

JURY DEMAND

⬜

YES

🗹

NO

(CHECK

YES ONLY IF DE-

MANDED IN COMPLAINT)

VIII.

RELATED/REFILED CASE(S) IF ANY

JUDGE

DOCKET NO.

CIVIL CASES ARE DEEMED RELATED IF THE
PENDING CASE INVOLVES: (CHECK APPROPRIATE
BOX)
⬜ 1. PROPERTY INCLUDED IN AN EARLIER
NUMBERED PENDING SUIT.
⬜ 2. SAME ISSUE OF FACT OR ARISES OUT OF
THE SAME EVENT OR TRANSACTION INCLUDED IN AN EARLIER NUMBERED
PENDING SUIT.
⬜ 3. VALIDITY OR INFRINGEMENT OF THE
SAME PATENT, COPYRIGHT OR TRADEMARK INCLUDED IN AN EARLIER NUMBERED PENDING SUIT.
⬜ 4. APPEALS ARISING OUT OF THE SAME
BANKRUPTCY CASE AND ANY CASE RELATED THERETO WHICH HAVE BEEN DECIDED BY THE SAME BANKRUPTCY JUDGE.
⬜ 5. REPETITIVE CASES FILED BY PRO SE LITIGANTS.
⬜ 6. COMPANION OR RELATED CASE TO CASE(S)
BEING SIMULTANEOUSLY FILED (INCLUDE
ABBREVIATED STYLE OF OTHER CASE(S)):

App. 54
⬜ 7. EITHER SAME OR ALL OF THE PARTIES
AND ISSUES IN THIS CASE WERE PREVIOUSLY INVOLVED IN CASE NO.
,
WHICH WAS DISMISSED. This case ⬜ IS
⬜ IS NOT (check one box) SUBSTANTIALLY
THE SAME CASE.
[Illegible]
SIGNATURE OF
ATTORNEY OF RECORD

5/30/19
DATE

App. 55
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ROME DIVISION
DOUGLAS EDWARDS,
Plaintiff,
vs.
SOLOMON AND
SOLOMON P.C.,

CIVIL ACTION NO.
4:19-cv-299-HLM-WEJ

Defendant,
DEFENDANT’S NOTICE OF REMOVAL
(Filed Dec. 30, 2019)
TO: THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ROME DIVISION and
Edward Douglas
Through his counsel of record:
Rory K. Starkey
Hilliard Starkey Law
561 Thornton Rd., Suite G
Lithia Springs, Georgia 30122
PLEASE TAKE NOTICE that, pursuant to 28
U.S.C. §1446(a) and (b), and 27 U.S.C. §1441(b), the Defendant, Solomon and Solomon P.C., hereby removes
this case to the United States District Court for the
Northern District of Georgia, Rome Division based on
the following grounds:
1. This action is removable to the United States
District Court under 28 U.S.C. Sections 1331 and 1441
on the grounds of federal question jurisdiction, in that
the complaint purports to allege a cause of action

App. 56
under the Fair Debt Collection Practices Act, 15 U.S.C.
§ 1692, et seq.
2. Pursuant to 28 U.S.C. § 1446(b), this Notice of
Removal is ﬁled within thirty days after Defendant’s
receipt of the initial pleadings setting forth the claim
for relief upon which this action is based.
3. Pursuant to 28 U.S.C. § 1446(a), attached
hereto as Exhibit “A” are copies of the following documents, which are all the process, pleadings and orders
received for this action.
4. Defendant was served with Plaintiff ’s Complaint on December 3, 2019.
5. Upon receipt of this Notice, no further action
shall be taken in the Superior Court of Bartow County,
State of Georgia.
6. By ﬁling this Notice of Removal, the Defendant demonstrates its consent to the removal of the case
to this Court.
This 30th day of December, 2019.
Respectfully submitted,
BEDARD LAW GROUP, P.C.
/s/ Michael K. Chapman
Michael K. Chapman
Georgia Bar No. 322145
John H. Bedard, Jr.
Georgia Bar No. 043473
Counsel for Defendant
Solomon and Solomon, P.C.

App. 57
Bedard Law Group, P.C.
4855 River Green Parkway, Suite 310
Duluth, Georgia 30096
Telephone: (678) 253-1871
E-mail: mchapman@bedardlawgroup.com
E-mail: jbedard@bedardlawgroup.com

CERTIFICATE OF COMPLIANCE
WITH LOCAL RULE 7.1D
Pursuant to Local Rule 7.1D, the undersigned
counsel certiﬁes that this document has been prepared
using Times New Roman 14-point font.
This 30th day of December, 2019.
Respectfully submitted,
BEDARD LAW GROUP, P.C.
/s/ Michael K. Chapman
Michael K. Chapman
Georgia Bar No. 322145

App. 58
CERTIFICATE OF SERVICE
This is to certify that I have this date served a copy
of the foregoing Defendant Solomon and Solomon,
P.C.’s Notice of Removal to the United States District
Court for the Northern District of Georgia, Rome Division by depositing a copy of the same in the United
States Mail in a properly addressed envelope with adequate postage thereon to:
Rory K. Starkey
Hilliard Starkey Law
561 Thornton Rd., Suite G
Lithia Springs, Georgia 30122
I further hereby certify that on this date, electronically ﬁled this Notice of Removal using the CM/ECF
system which will automatically send e-mail notiﬁcation of such ﬁling to the following attorney(s) of record:
Rory K. Starkey
rkstarkey@hstarlaw.com
This 30th day of December, 2019.
Respectfully submitted,
BEDARD LAW GROUP, P.C.
/s/ Michael K. Chapman
Michael K. Chapman
Georgia Bar No. 322145

App. 59
CIVIL COVER SHEET
The JS 44 civil cover sheet and the information contained herein neither replace nor supplement the ﬁling
and service of pleadings or other papers as required by
law, except as provided by local rules of court. This
form, approved by the Judicial Conference of the
United States in September 1974, is required for the
use of the Clerk of Court for the purpose of initiating
the civil docket sheet. (SEE INSTRUCTIONS ON
NEXT PAGE OF THIS FORM.)
I. (a) PLAINTIFFS
DOUGLAS EDWARDS
(b) County of Residence of First Listed Plaintiff
Bartow
(EXCEPT IN U.S. PLAINTIFF CASES)
(c) Attorneys (Firm Name, Address, and Telephone
Number)
Rory Starkey of Hilliard Starkey Law, 561 Thornton
Rd., Suite G, Lithia Springs, Georgia 30122; Tel: (678)
909-2096.
DEFENDANTS
SOLOMON AND SOLOMON, P.C.
County of Residence of First Listed Defendant
Bartow
(EXCEPT IN U.S. PLAINTIFF CASES)
NOTE: IN LAND CONDEMNATION CASES, USE
THE LOCATION OF THE TRACT OF LAND
INVOLVED

App. 60
Attorneys (If Known)
Michael K. Chapman & John H. Bedard, Jr. of Bedard
Law Group, P.C., 4855 River Green Parkway, Suite 310,
Duluth, Georgia 30096; Tel: (678) 253-1871.
II. BASIS OF JURISDICTION (Place an “X” in One
Box Only)
⬜ 1 U.S. Government
Plaintiff

☒ 3 Federal Question
(U.S. Government Not
a Party)

⬜ 2 U.S. Government
Defendant

⬜ 4 Diversity
(Indicate Citizenship
of Parties in Item III)

III. CITIZENSHIP (Place an “X” in One Box for Plaintiff
(For Diversity Cases Only) and One Box for Defendant)
PTF DEF
Citizen of This State

⬜ 1

⬜ 1

Citizen of Another State

⬜ 2

⬜ 2

Citizen or Subject of a
Foreign County

⬜ 3

⬜ 3

Incorporated or Principal Place
of Business In This State
⬜ 4

⬜ 4

Incorporated and Principal Place
of Business In Another State
⬜ 5

⬜ 5

⬜ 6

⬜ 6

Foreign Nation

App. 61
IV.

NATURE OF SUIT (Place an “X” in One Box Only)
CONTRACT

⬜
⬜
⬜
⬜
⬜

110
120
130
140
150

⬜ 151
⬜ 152
⬜ 153
⬜
⬜
⬜
⬜

160
190
195
196

Insurance
Marine
Miller Act
Negotiable Instrument
Recovery of Overpayment & Enforcement of
Judgment
Medicare Act
Recovery of Defaulted Student Loans (Excludes Veterans)
Recovery of Overpayment of Veteran’s Beneﬁts
Stockholders’ Suits
Other Contract
Contract Product Liability
Franchise
REAL PROPERTY

⬜
⬜
⬜
⬜
⬜
⬜

210
220
230
240
245
290

Land Condemnation
Foreclosure
Rent Lease & Ejectment
Torts to Land
Tort Product Liability
All Other Real Property
TORTS

PERSONAL INJURY
⬜
⬜
⬜
⬜

310
315
320
330

Airplane
Airplane Product Liability
Assault, Libel & SlAnder
Federal Employers’ Liability

App. 62
⬜
⬜
⬜
⬜
⬜
⬜
⬜
⬜

340
345
350
355
360
362
365
367

Marine
Marine Product Liability
Motor Vehicle
Motor Vehicle Product Liability
Other Personal Injury
Personal Injury – Medical Malpractice
Personal Injury – Product Liability
Health Care/Pharmaceutical Personal Injury
Product Liability
⬜ 368 Asbestos Personal Injury Product Liability
PERSONAL PROPERTY
⬜
⬜
⬜
⬜

370
371
380
385

Other Fraud
Truth in Lending
Other Personal Property Damage
Property Damage Product Liability
CIVIL RIGHTS

⬜
⬜
⬜
⬜
⬜
⬜
⬜

440
441
442
443
445
446
448

Other Civil Rights
Voting
Employment
Housing/Accommodations
Amer. w/Disabilities – Employment
Amer. w/Disabilities – Other
Education
PRISONER PETITIONS

Habeas Corpus:
⬜
⬜
⬜
⬜

463
510
530
535

Alien Detainee
Motions to Vacate Sentence
General
Death Penalty

App. 63
Other:
⬜
⬜
⬜
⬜

540
550
555
560

Mandamus & Other
Civil Rights
Prison Condition
Civil Detainee – Conditions of Conﬁnement
FORFEITURE/PENALTY

⬜ 625 Drug Related Seizure of Property 21 USC 881
⬜ 690 Other
LABOR
⬜
⬜
⬜
⬜
⬜
⬜

710
720
740
751
790
791

Fair Labor Standards Act
Labor/Management Relations
Railway Labor Act
Family and Medical Leave Act
Other Labor Litigation
Employee Retirement Income Security Act
IMMIGRATION

⬜ 462 Naturalization Application
⬜ 465 Other Immigration Actions
BANKRUPTCY
⬜ 422 Appeal 28 USC 158
⬜ 423 Withdrawal 28 USC 157
PROPERTY RIGHTS
⬜ 820 Copyrights
⬜ 830 Patent

App. 64
⬜ 835 Patents – Abbreviated New Drug Application
⬜ 840 Trademark
SOCIAL SECURITY
⬜
⬜
⬜
⬜
⬜

861
862
863
864
865

HIA (1395ff)
Black Lung (923)
DIWC/DIWW (405(g))
SSID Title XVI
RSI (405(g))
FEDERAL TAX SUITS

⬜ 870 Taxes (U.S. Plaintiff or Defendant)
⬜ 871 IRS—Third Party 26 USC 7609
OTHER STATUTES
⬜
⬜
⬜
⬜
⬜
⬜
⬜
⬜

375
376
400
410
430
450
460
470

⬜
☒
⬜
⬜
⬜
⬜
⬜
⬜
⬜

480
485
490
850
890
891
893
895
896

False Claims Act
Qui Tam (31 USC 3729(a))
State Reapportionment
Antitrust
Banks and Banking
Commerce
Deportation
Racketeer Inﬂuenced and Corrupt Organizations
Consumer Credit
Telephone Consumer Protection Act
Cable/Sat TV
Securities/Commodities/Exchange
Other Statutory Actions
Agricultural Acts
Environmental Matters
Freedom of Information Act
Arbitration

App. 65
⬜ 899 Administrative Procedure Act/Review or Appeal of Agency Decision
⬜ 950 Constitutionality of State Statutes
V.
⬜
☒
⬜
⬜
⬜
⬜
⬜

ORIGIN (Place an “X” in One Box Only)
1
2
3
4
5
6
8

VI.

Original Proceeding
Removed from State Court
Remanded from Appellate Court
Reinstated or Reopened
Transferred from Another District (specify)
Multidistrict Litigation – Transfer
Multidistrict Litigation – Direct File
CAUSE OF ACTION

City the U.S. Civil Statute under which you are ﬁling
(Do not cite jurisdictional statutes unless diversity):
28 USC Sec. 1441 – Federal Question Jurisdiction
Brief description of cause:
Plaintiff alleges claims against Defendant under the
Fair Debt Collection Practices Act, 15 USC Sec. 1692,
et seq.
VII.

REQUESTED IN COMPLAINT:

⬜ CHECK IF THIS IS A CLASS ACTION UNDER
RULE 23, F.R.Cv. P.
DEMAND $
CHECK YES only if demanded in complaint:
JURY DEMAND: ⬜ Yes

☒ No

App. 66
VIII.

RELATED CASE(S) IF ANY (See instructions)

JUDGE
DOCKET NUMBER
DATE

SIGNATURE OF ATTORNEY
OF RECORD

12/30/2019

/s/ Michael K. Chapman
(GA Bar No. 322145)

FOR OFFICE USE ONLY
RECEIPT #
APPLYING IFP
MAG. JUDGE

AMOUNT
JUDGE

EXHIBIT A

App. 67
SUPERIOR COURT OF BARTOW COUNTY
STATE OF GEORGIA
CIVIL ACTION NUMBER SUCV20 19001541
Edwards, Douglas
PLAINTIFF
VS.
Solomon and Solomon PC
DEFENDANT
SUMMONS
(Filed Nov. 27, 2019)
TO THE ABOVE NAMED DEFENDANT:
You are hereby summoned and required to ﬁle with the
Clerk of said court and serve upon the Plaintiffs attorney, whose name and address is:
Rory Starkey
Hilliard Starkey Law
561 Thornton Rd
Suite G
Lithia Springs, Georgia 30122
an answer to the complaint which is herewith served
upon you, within 30 days after service of this summons
upon you, exclusive of the day of service. If you fail to
do so, judgment by default will be taken against you
for the relief demanded in the complaint.

App. 68
This 27th day of November, 2019.
Clerk of Superior Court
/s/

Melba Scoggins
Melba Scoggins, Clerk
Bartow County, Georgia

App. 69
IN THE SUPERIOR COURT OF BARTOW COUNTY
STATE OF GEORGIA
DOUGLAS EDWARDS,

)
)
)
)
)
)
)
)

Plaintiff,
vs.
SOLOMON AND
SOLOMON P.C.,
Defendants.

Civil Action
No.

COMPLAINT
(Filed Nov. 27, 2019)
Plaintiff, Douglas Edwards, hereby complains
against Defendant, Solomon and Solomon P.C., for
violations of the Federal Debt Consumer Protection
Act.
PARTIES
1.
Plaintiff, Douglas Edwards is a resident of Bartow
County, Georgia.
2.
Defendant, Solomon and Solomon, P.C., is a New
York corporation, located at 5 Columbia Circle, Albany
NY 12203.

App. 70
3.
Defendant Solomon and Solomon P.C. is a law ﬁrm
in New York.
JURISDICTION AND VENUE
4.
This Court has subject matter jurisdiction over
this matter pursuant to F.D.C.P.A 15 USC § 692e and
15 USC § 692k.
5.
This Court may exercise personal jurisdiction over
the Defendants because the Defendants committed a
tortious act or omission within this state, O.C.G.A.
§ 10-91.
6.
Venue is proper in Bartow County because venue
shall lie in any county wherein a substantial part of
the business was transacted, the tortious act, omission,
or injury occurred. O.C.GA. § 9-10-93.
FACTS
7.
Plaintiff Douglas Edwards borrowed a total of
$47,094 over the course of seven years for the furtherance of his dentistry education at an eight

App. 71
percent interest rate. He borrowed $2,500 every year
from October 1984 through January 1991, except in
August 1989 where he borrowed $11,500. Mr. Edwards
also borrowed an additional $11,500 in September
1990 and September 1991. The primary lender on all
the loans was Chemical Bank.
8.
After graduation, Mr. Edwards was unable to afford the loan on his meager dental assistance salary, so
he defaulted on the loan.
9.
On April 05, 1999, New York State Higher Education Services Corporation “NYS HESC”, the guarantor
of the loan, obtained a judgment on a portion of Mr.
Edwards’ loan totaling $21,719.89. Mr. Edwards paid
off the judgment portion in February 2009.
10.
In June 1999, Solomon and Solomon P.C. contacted Mr. Edwards about the repayment of his loan.
That communication failed to include the principal
amount. Furthermore, Solomon and Solomon P.C.’s
failed to include mandatory statutory language informing the consumer of his or her right to dispute
the debt in its ﬁrst communication or within thirty
days of its ﬁrst communication in violation of Section
809. Section 809(a)(4) requires the debt collector to

App. 72
notify the consumer of his or her right to dispute the
debt within thirty days of its ﬁrst communication.
11.
Mr. Edwards made his ﬁrst payment of $300 to
Solomon and Solomon P.C. on July 20, 1999 shortly after receiving his dentistry license. He consistently
made payments every month without ever missing a
payment.
12.
Mr. Edwards realized that the judgment loan that
he had paid off was not reported to NYS HESC. After
struggling to resolve the issue with his judgment loan,
he contacted Solomon and Solomon P.C., the designated debt collector for the non-judgement portion of
the loan for NYS HESC, to ensure that his payments
were being applied properly and to get more information, including the principal amount, on his loan.
Solomon and Solomon P.C. refused to provide the principal amount on the debt.
13.
So far, Mr. Edwards has paid $68,400 to Solomon
and Solomon P.C. over the past nineteen years yet he
has not seen a reduction in the amount owed on the
loan.

App. 73
14.
Furthermore, Mr. Edwards has inquired about the
principal amount of the loan from Solomon and Solomon P.C. and was given the run-around for several
years. He was even told by a representative of Solomon
and Solomon P.C. that they did not know the principal
amount on Mr. Edwards’ loan which is absurd.
15.
Additionally, in all the debt correspondences from
Solomon and Solomon P.C., Solomon and Solomon P.C.
failed to include a principal amount obstructing Mr.
Edwards from obtaining the true nature of his loan.
16.
In addition to many others, Defendant’s May 1,
2018 and May 25, 2018 dunning letters are evidence of
the ruse Solomon and Solomon used on Mr. Edwards.
These letters show the missing principal amounts despite Mr. Edward’s several requests for the principal
amount to be disclosed so he could make an informed
decision on how to pay off his loans.
17.
Additionally, on July 23, 2018, Ms. Tonya Tillman,
a representative of Solomon and Solomon P.C. attempted to collect on the paid off judgment loan, during a phone call with Ms. Edwards. Ms. Tillman asked
Ms. Edwards whether she was calling to set up a

App. 74
payment plan for the overdue judgement debt. This unscrupulous request was a violation of the FDCPA as
this loan had already been paid off.
18.
Mr. Edwards has been diligent in the payment of
his loans for the past nineteen years and should have
paid off his debt or at least drastically reduced his debt
since the initial payment.
19.
Unfortunately, this is not the case as Mr. Edwards
is in constant fear of wage garnishment from a woefully inaccurate or invalid loan.
CLAIMS
VIOLATION OF FAIR DEBT
COLLECTION PRACTICES ACT (FDCPA)
I.

VIOLATION OF FDCPA 15 USC § 1692E(2)(A)
A.

WHEN A COLLECTOR FAILS TO STATE A PRINCIPAL
BALANCE IN ITS DUNNING COMMUNICATION TO A
DEBTOR, THEY COMMIT A FALSE REPRESENTATION THAT THE COLLECTION AGENCY DOES NOT
KNOW THE PRINCIPAL. THIS IS A VIOLATION OF

USC § 1692E’S

15

GENERAL STATUTORY SCHEME

WHICH PROHIBITS THE MISREPRESENTATION OF
THE CHARACTER, LEGAL STATUS, OR AMOUNT OF
A DEBT.

COUNT I:

MAY 1, 2018 VIOLATION

App. 75
20.
Plaintiff restates and incorporates paragraphs 717.
21.
15 USC § 1692e(2)(a) prohibits debt collectors
from falsely representing the character, legal status,
or amount of a debt.
22.
Solomon and Solomon P.C. did not state the principal amount in its ﬁrst communication with Mr. Edwards on June 05, 1999 or any other communication
with Mr. Edwards including the May 1, 2018. Neither
did it notify Mr. Edwards of his right to dispute the
debt within thirty days of its ﬁrst communication to
Mr. Edwards.
23.
Mr. Edwards also contacted Solomon and Solomon
P.C. several times to inquire about the principal
amount of the debt and was rebuffed. A Solomon and
Solomon P.C. representative also told Mr. Edwards
that Solomon and Solomon P.C was unaware of the
principal amount of the debt. That representative was
obviously lying and mispresenting the truth to Mr. Edwards because Solomon and Solomon P.C. had the principal balance but refused to disclose the information.

App. 76
24.
All correspondences between Mr. Edwards and
Solomon and Solomon P.C. omit the principal debt
amount including the May 1, 2018 correspondence.
25.
Although Mr. Edwards has paid $300 a month consistently for the past nineteen years, his balance never
reduced.
COUNT II:

MAY 25, 2018 VIOLATION
26.

Plaintiff restates and incorporates paragraphs 717.
27.
15 USC § 1692e(2)(a) prohibits debt collectors
from falsely representing the character, legal status,
or amount of a debt.
28.
Solomon and Solomon P.C. never stated the principal amount in its ﬁrst communication or in any off
its communications with Mr. Edwards including the
May 25, 2018 communication.

App. 77
29.
Furthermore, Solomon and Solomon P.C. refused
to give Mr. Edwards the principal amount stating that
“Solomon and Solomon P.C. was unaware of the principal amount.”
30.
So far, Mr. Edwards has not missed a payment
since he started paying back his student loans, yet his
loan continues to balloon into perpetuity with no end
date in sight.
B. WHEN A COLLECTOR FAILS TO STATE A PRINCIPAL
BALANCE IN ITS DUNNING COMMUNICATIONS TO A
DEBTOR, THEY COMMIT A FALSE REPRESENTATION THAT THERE IS NO PRINCIPAL BALANCE.
SUCH IS A VIOLATION OF

15 USC 1692E’S

GEN-

ERAL STATUTORY SCHEME OF NOT MISREPRESENTING THE CHARACTER, LEGAL STATUS, OR
AMOUNT OF A DEBT.

COUNT III:

MAY 1, 2018 VIOLATION
31.

Plaintiff restates and incorporates paragraphs 717.
32.
In this case, Solomon and Solomon P.C. has failed
to include a principal amount in all of it correspondences with Mr. Edward including the May 1, 2018.

App. 78
Thereby, violating the FDCPA in every correspondence
with Mr. Edwards.
33.
Furthermore, when Mr. Edwards asked about the
principal amount from Solomon and Solomon P.C.,
they refused to provide him with the information.
34.
Solomon and Solomon P.C. went as far as stating
that they were unaware of the principal amount. This
misrepresentation is misleading as it indicates that
there is no principal amount when the facts are undisputed that there is a principal balance.
COUNT IV:

MAY 25, 2018 VIOLATION
35.

Plaintiff restates and incorporates paragraphs 717.
36.
Solomon and Solomon P.C. has intentionally refused to include a principal amount in all of it correspondences with Mr. Edward including the May 25,
2018 violating the FDCPA by misrepresenting the nature and amount of the loan.

App. 79
37.
Mr. Edwards was rebuffed when he inquired about
the principal amount and was told that Solomon and
Solomon P.C. was unaware of the principal amount
which was false.
C. WHEN A COLLECTOR FAILS TO STATE A PRINCIPAL
BALANCE IN ITS DUNNING COMMUNICATION TO A
DEBTOR THEY COMMIT A MISLEADING REPRESENTATION BECAUSE WITHOUT BEING PROVIDED A
STATEMENT OF PRINCIPAL BALANCE THE DEBTOR
IS UNABLE TO DETERMINE AN APPROPRIATE PAYMENT STRUCTURE AS WOULD EVER ALLOW THE
PAY OFF THE DEBT SUCH IS A VIOLATION OF

USC 1692E’S

15

GENERAL STATUTORY SCHEME OF

NOT MISREPRESENTING CHARACTER, LEGAL STATUS, OR AMOUNT OF A DEBT.

COUNT V:

MAY 1, 2018 VIOLATION
38.

Plaintiff restates and incorporates paragraphs 717.
39.
Solomon and Solomon P.C. knowingly and intentionally misrepresented the amount of Mr. Edwards
debt. The failure to include the principal amount of the
loan in any correspondences of the debt, including the
May 1, 2018 correspondence, was a ploy by Solomon
and Solomon P.C. to ensure that Mr. Edwards would be
indebted forever preventing him from knowing the

App. 80
true nature/amount of his loan and preventing him
from making intelligent choices on eliminating his
debt.
40.
Mr. Edwards was unable to make principal only
payments or set up an appropriate payment amount to
pay off his debt. Instead, Mr. Edwards was put on a
payment cycle that would never pay off.
41.
Additionally, Mr. Edwards doubled up his payments in January 2001, October 2005, and February
2008 in an attempt to make principal only payments,
but the payments were still not applied to the principal. His principal never reduced.
42.
Each of those attempts at principal only payments
create individual FDCPA violations as they misrepresent the nature and amount of the debt.
COUNT VI:

MAY 25, 2018 VIOLATION
43.

Plaintiff restates and incorporates paragraphs 717.

App. 81
44.
Solomon and Solomon P.C. willfully misrepresented the amount of Mr. Edwards debt in order to
keep Mr. Edwards in debt in perpetuity.
45.
Mr. Edwards was prevented from knowing the
true nature and amount of his loan, so he was unable
to make an informed decision on how to efﬁciently pay
of his student loans. For instance, he wasn’t given the
option to make principal only payments. Instead, Mr.
Edwards was put on a payment cycle that would never
pay off.
46.
Additionally, Mr. Edwards doubled up his payments in January 2001, October 2005, and February
2008 in an attempt to make principal only payments,
but the payments were not applied to the principal because his principal never reduced.
47.
Each of those attempts at principal only payments
create individual FDCPA violations as they misrepresent the nature and amount of the debt.

App. 82
D. WHEN A COLLECTOR FAILS TO STATE A PRINCIPAL
BALANCE IN ITS DUNNING COMMUNICATION TO A
DEBTOR, THEY COMMIT A FALSE REPRESENTATION ABOUT THE CHARACTER OF THE DEBT IN VIOLATION OF

COUNT VII:

15 USC § 1692E(2)(A).
MAY 1, 2018 VIOLATION
48.

Plaintiff restates and incorporates paragraphs 717.
49.
Character is deﬁned as the “aggregate of features
and traits that form the individual nature of some person or things.” Solomon and Solomon P.C. intentionally
omitted the principal amount of the loan to conceal the
character the loan. By omitting the principal, the loan
appears to be an interest only loan and not a typical
loan.
50.
The omission of the principal amount in the May
1, 2018 loan and in all the previous loans presented a
false narrative of a principal free loan that ran into
perpetuity.
51.
This misrepresentation is in violation of 15 USC
§ 1692e(2)(a) as the lack of principal falsely represents

App. 83
the loan as an interest only loan that runs into perpetuity which is not the case.
52.
This failure to include a principal loan hindered
Mr. Edwards ability to make an informed decision on
how to pay off the loan.
53.
Therefore, even though Mr. Edwards paid $300 a
month consistently for the past nineteen years, his balance never reduced and his attempts to double up on
the payments did not result in the reduction of his
loan.
COUNT VIII:

MAY 25, 2018 VIOLATION
54.

Plaintiff restates and incorporates paragraphs 717.
55.
Solomon and Solomon P.C. omission of the principal amount in all communications with Mr. Edward including the May 25, 2018 was an intentional decision
to misrepresent Mr. Edward’s loan and to keep him in
debt forever.

App. 84
56.
The fact is Solomon and Solomon P.C. knew the
principal amount but intended to portray the loan as
an interest only loan.
57.
This misrepresentation hindered Mr. Edwards
ability to pay down or pay off his loan.
E. WHEN A COLLECTOR FAILS TO STATE A PRINCIPAL
BALANCE IN ITS DUNNING COMMUNICATION TO A
DEBTOR, THEY COMMIT A FALSE REPRESENTATION ABOUT THE LEGAL STATUS OF THE DEBT IN
VIOLATION OF

15 USC § 1692E(2)(A).

COUNT IX: MAY 1, 2018 VIOLATION
58.
Plaintiff restates and incorporates paragraphs 717.
59.
Solomon and Solomon P.C.’s intentional omission
of the principal amount was a willful attempt to conceal the legal status of the debt. The lack of information on the May 1, 2018 communication and the
previous communications prevented Mr. Edwards from
being able to determine the components of the loan and
the loan portions that were disputed.

App. 85
60.
Because Mr. Edwards had issues with judgement
debt collector not reporting his payments to the guaranty agency and overpaying the judgement debt collector, Mr. Edwards wanted to know the status of his non
judgement debt because his payments only ballooned
but never reduced.
61.
By concealing the principal amount, Solomon and
Solomon P.C. attempted to hide the type of loan and
the disputed portion of the loan.
COUNT X:

MAY 25, 2018 VIOLATION
62.

Plaintiff restates and incorporates paragraphs 717.
63.
Solomon and Solomon P.C.’s concealment of Mr.
Edwards debt was intentional misrepresentation of
the legal status of the debt. The lack of information on
the May 25, 2018 communication and the previous
communications prevented Mr. Edwards from being
able to determine the components of the loan and the
loan portions that were disputed.

App. 86
64.
Mr. Edwards in attempt to be meticulous after
ﬁnding that his judgement loan payments were not being reported to the guaranty agency, contacted Solomon and Solomon P.C. to get the principal amount of
the loan as his loan total never reduced but only increased similar to his judgement loan predicament. Mr.
Edwards was rebuffed which made him question the
accuracy of his non-judgement debt.
65.
In so doing the described actions, Solomon and
Solomon P.C. knowingly and falsely represented the
amount of the debt. The failure to include the principal
amount of the debt was a ploy by Solomon and Solomon
P.C. to ensure that Mr. Edwards would be indebted forever preventing him from knowing the true character
of his loan and preventing him from making intelligent
choices on eliminating his debt.
66.
By denying Mr. Edwards’ request for the principal
amount information, Solomon and Solomon P.C. concealed the type of loan and the disputed portion of the
loan.

App. 87
E. WHEN

A COLLECTOR ATTEMPTS TO COLLECT A

DEBT THAT HAS ALREADY BEEN PAID OFF, THEY
COMMIT A FALSE REPRESENTATION ABOUT THE
LEGAL STATUS OF THE DEBT IN VIOLATION OF

15

USC § 1692E(2)(A).
COUNT XI:

JULY 23, 2018 VIOLATION
67.

Plaintiff restates and incorporates paragraphs 717.
68.
Solomon and Solomon P.C.’s attempt to collect a
debt that has already been paid in the July 23, 2018
phone conversation was an intentional misrepresentation of the legal status of the debt. The legal status of
a debt refers to the legal authority to collect on a valid
loan.
69.
Because the judgment loan had already been paid
off, Solomon and Solomon P.C. did not have the legal
authority to request payment on the loan.

App. 88
G. WHEN

A COLLECTOR ATTEMPTS TO COLLECT A

DEBT THAT HAS ALREADY BEEN PAID OFF, THEY
COMMIT A FALSE REPRESENTATION ABOUT THE
AMOUNT OF THE DEBT IN VIOLATION OF

15 USC

§ 1692E(2)(A).
COUNT XII:

JULY 23, 2018 VIOLATION
70.

Plaintiff restates and incorporates paragraphs 717.
71.
A debt collect subject to the FDCPA cannot make
a false representation as to the amount of the debt
owed. In this case, the Solomon and Solomon P.C. requested payment on a paid off debt on July 23, 2018
inﬂating the total amount of the debt.
72.
This unjustiﬁed inﬂation of the total amount of the
debt is a misrepresentation of the amount owed because it stipulates that the already disputed loan
amount is a lot higher than it should be and that Solomon and Solomon P.C. can collect that higher amount.
However, the judgment loan was paid off in 2009, so
Solomon and Solomon P.C. had no legal authority to
collect on the inﬂated amount as a portion of that
amount had already been paid off and was therefore
invalid.

App. 89
II.

VIOLATION OF FDCPA 15 USC § 1692e(10)
WHEN A COLLECTOR FAILS TO STATE A PRINCIPAL
BALANCE IN ITS DUNNING COMMUNICATION TO A
DEBTOR AND OTHERWISE REFUSE AND/OR FAIL TO
DISCLOSE A DEBTOR’S PRINCIPAL BALANCE. THEY
EMPLOY FALSE MEANS/METHODS IN THE COLLECTION OF A DEBT IN VIOLATION OF THE

F.D.C.P.A

73.
Plaintiff restates and incorporates paragraphs 772 and the facts alleged thereto amount to violations
of USC § 1692e(10).
74.
III.

VIOLATION OF FDCPA 15 USC § 1692f.
WHEN A COLLECTOR FAILS TO STATE A PRINCIPAL
BALANCE IN ITS DUNNING COMMUNICATION TO A
DEBTOR AND OTHERWISE REFUSE AND/OR FAIL TO
DISCLOSE A DEBTOR’S PRINCIPAL BALANCE. THEY
EMPLOY UNFAIR AN UNCONSCIONABLE MEANS TO
COLLECT AND/OR ATTEMPT TO COLLECT A DEBT.

75.
Plaintiff restates and incorporates paragraphs 774 and the facts alleged thereto amount to violations
of USC § 1692f.

App. 90
IV.

VIOLATION OF FDCPA 15 USC § 1692f(1).
WHEN A COLLECTOR FAILS TO STATE A PRINCIPAL
BALANCE IN ITS DUNNING COMMUNICATION TO A
DEBTOR AND OTHERWISE REFUSE AND/OR FAIL TO
DISCLOSE A DEBTOR’S PRINCIPAL BALANCE AND
THE SAME RESULTS IN THE DEBTOR OVERPAYING
INTEREST AND COLLECTION COSTS , THE COLLECTOR VIOLATES

15 USC § 1692F(1)’S

PROHIBI-

TION AGAINST COLLECTING AMOUNTS NOT OWED.

76.
Plaintiff restates and incorporates paragraphs 774 and the facts alleged thereto amount to violations
of USC § 1692f(1).
WHEN

A COLLECTOR FAILS TO APPROPRIATELY

APPLY PAYMENTS AND /OR ACCOUNT FOR FUNDS
REMITTED THE COLLECTOR VIOLATES

§ 1692F(1)’S

15 USC

PROHIBITION AGAINST COLLECTING

AMOUNTS NOT OWED.

77.
Plaintiff restates and incorporates paragraphs 774 and the facts alleged thereto amount to violations
of USC § 1692f(1).
DAMAGES
78.
Because of Defendants actions, Mr. Edwards has
suffered great emotional distress.

App. 91
79.
Solomon and Solomon P.C.’s intentional omission
of the principal amount has put Mr. Edwards in constant fear of garnishment of wages for a debt that
should have been paid off.
80.
Because of Defendants actions, Mr. Edwards has
overpaid his student loans and never received credit
for payments made to Solomon & Solomon.
PRAYER
Whereby Petitioner prays for:
(a) actual damages, including any overpayments to Solomon and Solomon P.C.
(b) an award of nominal damages in the
amount of $1,000.
(c) all reasonably attorney’s fees
(d) and all costs.
Respectfully submitted this 27th day of November
2019.
/s/ R. K. Starkey
Rory K. Starkey
Bar No. 676450
Attorney for Petitioner

App. 92
HIILIARD STARKEY LAW
561 Thornton Rd, Suite G
Lithia Springs, GA 30122
(678) 909-2-96 (phone)
(678) 623-5767 (fax)
rkstarkey@hstarlaw.com

